              Audit Report



Payments to Individuals with Deaths
Reported in California from 1980 to
               1987




       A-06-14-21416 | August 2014
MEMORANDUM


Date:      August 14, 2014                                                  Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)

           The attached final report presents the results of our audit. Our objective was to determine the
           appropriateness of continued benefit payments to individuals who, according to California
           Department of Public Health vital statistics data files, died in California between January 1980
           and December 1987.

           Please provide within 60 days a corrective action plan that addresses each recommendation. If
           you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                          Patrick P. O’Carroll, Jr.

           Attachment
Payments to Individuals with Deaths Reported in California
from 1980 to 1987
A-06-14-21416
August 2014                                                               Office of Audit Report Summary

Objective                                 Our Findings

To determine the appropriateness of       At the time of our audit, SSA issued benefit payments to
continued benefit payments to             22 individuals whose PII matched that of individuals who died in
individuals who, according to             California during the 1980s. We obtained California death
California Department of Public           certificates for each of the 22 beneficiaries and forwarded fraud
Health (CDPH) vital statistics data       referrals to our Office of Investigations (OI).
files, died in California between
January 1980 and December 1987.              OI determined that 3 of the 22 beneficiaries were alive. In these
                                              instances, it appeared that California issued death certificates
Background                                    upon the deaths of identity thieves who used these SSNs to
                                              work in the 1970s and 1980s. It appeared that SSA erroneously
In August 2010, we investigated               incorporated the identity thieves’ work activity into all three
approximately 60 fraudulent retirement        beneficiaries’ payment computations, resulting in as much as
claims that were filed using the Social       $186,000 in overpayments.
Security Administration’s (SSA)
online application process. The              SSA stated that one beneficiary is likely alive and the victim of
investigation revealed that an                an identity thief. SSA is in the process of verifying the
individual and two accomplices used           beneficiary’s identity.
death information of individuals who
died in California in the 1980s and          OI determined that 14 beneficiaries were deceased. OI and SSA
filed retirement benefit claims using         determined that SSA issued approximately $3 million in
the deceased individuals’ personally          improper payments in these cases.
identifiable information (PII).
                                             Investigations are in progress in the four remaining cases. If the
We obtained CDPH data that identified         numberholders are confirmed deceased, we estimate that SSA
the PII of approximately 1.2 million          issued an additional $598,350 in improper payments. Our
numberholders who died in California          investigators will pursue criminal charges and work with SSA
between 1980 and 1987. We matched             to terminate the payments, as appropriate.
the data against SSA records.
                                          Another 64,193 numberholders with no death entry on the
                                          Numident were likely deceased. In most cases, the numberholders’
                                          name, SSN, and date of birth matched that of deceased individuals
                                          in CDPH death records. None of the 64,193 numberholders was
                                          receiving SSA payments at the time of our review. On
                                          June 12, 2014, we forwarded a data file to SSA identifying the
                                          64,193 numberholders. Resolving these discrepancies will reduce
                                          SSA’s exposure to future improper payments and improve the
                                          accuracy and completeness of the Death Master File.

                                          Our Recommendations

                                          We made two recommendations for corrective action. SSA agreed
                                          with one of the recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................1
     Beneficiaries Were Alive ...........................................................................................................3
     Beneficiaries Were Deceased ....................................................................................................4
     Investigations in Progress ..........................................................................................................5
     Deceased Non-beneficiary Numberholders ...............................................................................5
           Other Activity Recorded in SSA Records ...........................................................................7
     Request for Additional CDPH Death Data ................................................................................7
Conclusions ......................................................................................................................................8
Recommendations ............................................................................................................................8
Agency Comments and OIG Response............................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Summary of Improper Payments ........................................................................ B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)
ABBREVIATIONS
CDPH                 California Department of Public Health

DACUS                Death Alert, Control, and Update System

DMF                  Death Master File

EDR                  Electronic Death Registration

ESF                  Earnings Suspense File

MEF                  Master Earnings File

OIG                  Office of the Inspector General

PII                  Personally Identifiable Information

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSN                  Social Security Number

U.S.C.               United States Code




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)
OBJECTIVE
Our objective was to determine the appropriateness of continued benefit payments to individuals
who, according to California Department of Public Health 1 (CDPH) vital statistics data files, died
in California between January 1980 and December 1987.

BACKGROUND
Section 205(r) of the Social Security Act requires that the Social Security Administration (SSA)
match States’ death records against SSA payment records to identify and prevent erroneous
payments after death. 2 In addition, SSA matches death records from other Federal, State, and
local agencies. SSA uses the Death Alert, Control, and Update System (DACUS) to receive and
process death information 3 as well as record dates of death on the Numident file. The Numident
is an SSA database that houses, in Social Security number (SSN) order, personally identifiable
information (PII) for each numberholder. SSA uses DACUS to ensure that benefits to deceased
beneficiaries 4 are appropriately terminated; ensure corresponding SSA records are correct; and
produce a national record of death information, known as the Death Master File (DMF). 5

In August 2010, we investigated approximately 60 fraudulent retirement claims filed using
SSA’s online application process. The investigation revealed that three individuals used CDPH
and DMF information to identify individuals who died in California between 1980 and
December 1987 but whose death information was not included in the DMF. The individuals then
filed fraudulent retirement benefit claims with SSA using the deceased individuals’ PII.

The CDPH data obtained during the 2010 investigation identified the PII of approximately
1.2 million numberholders who died in California between 1980 and 1987. We matched the data
against SSA’s payment records and Numident. Our review focused on these cases. See
Appendix A for a discussion of our scope and methodology.

RESULTS OF REVIEW
At the time of our audit, SSA issued benefit payments to 22 individuals whose PII matched that
of individuals who died in California during the 1980s. 6 We obtained California death




1
    Previously known as the California Department of Health Services.
2
    42 U.S.C. § 405(r)(1).
3
    SSA, POMS, GN 02602.060A and B (May 13, 2011).
4
 We use the term “beneficiary” throughout this report in reference to both Old-Age, Survivors and Disability
Insurance beneficiaries and/or Supplemental Security Income recipients.
5
    SSA, POMS, GN 02602.060B.1.
6
    Matching PII included SSN, first and last name, date of birth, and parents’ names.



Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)                   1
certificates for each of the 22 beneficiaries and forwarded fraud referrals to our Office of
Investigations (OI).

   OI determined that three beneficiaries were alive. In these instances, it appeared that
    California issued death certificates upon the deaths of identity thieves who used these SSNs
    to work in the 1970s and 1980s. SSA initiated benefit payments to these beneficiaries in
    2004, 2005, and 2010, respectively. It appeared that SSA erroneously incorporated the
    identity thieves’ work activity into all three beneficiaries’ payment computations, resulting in
    as much as $186,000 in overpayments (see Appendix B, Table B–1).

   SSA stated that one beneficiary is likely alive and the victim of an identity thief. SSA is in
    the process of verifying the beneficiary’s identity.

   OI determined that 14 beneficiaries were deceased. Upon notification from OI, SSA
    terminated these payments and recorded the beneficiaries’ death information in its records.
    SSA determined it had issued approximately $3 million in improper payments in these cases
    (see Appendix B, Table B–2).

   Investigations are in progress in the four remaining cases. If the numberholders are
    confirmed deceased, we estimate that SSA issued an additional $598,350 improper payments
    (see Appendix B, Table B–3). Our investigators will pursue criminal charges and work with
    SSA to terminate the payments, as appropriate.

During the data matching process, we identified another 64,193 numberholders who were likely
deceased but did not have death information on the Numident. These numberholders’ PII
matched that of deceased individuals in CDPH death records. None of the 64,193 number-
holders was in current payment status at the time of our audit. 7 Because so much time had
passed since California originally recorded these deaths, we could not determine why this death
information did not appear in SSA’s records. Because the Numident did not reflect dates of
death for any of these numberholders, their death information did not appear in the DMF.
Resolving these discrepancies will reduce SSA’s exposure to future improper payments and
improve the accuracy and completeness of the DMF.




7
 SSA had established a Master Beneficiary or Supplemental Security Record for 11,628 of the 64,193
numberholders.



Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)         2
Beneficiaries Were Alive
Three beneficiaries whose PII matched PII on California death certificates were alive. In all
three cases, the State of California appeared to have generated the death certificates after
individuals using these SSNs to work in California (not the numberholders currently receiving
benefits) died in the 1980s. SSA initiated benefit payments under these SSNs in 2004, 2005, and
2010, respectively.

A beneficiary’s earnings and work history affect the amount SSA pays in future benefits.
Generally, the more a worker earns and the longer he/she works, the higher his/her SSA benefit
payment will be. Hence, if SSA records show work an individual did not actually perform,
his/her benefit payment may be higher than it should be. It appeared that SSA erroneously
incorporated the identity thieves’ work activity into all three beneficiaries’ payment
computations, resulting in as much as $186,000 in overpayments.

   A numberholder and his spouse, both Mexican nationals residing in Mexico and receiving
    SSA retirement benefits at the time or our audit, appeared to have filed fraudulent benefit
    claims in 2004. OI’s investigation revealed that neither the numberholder nor the spouse had
    actual covered earnings that would have entitled them to retirement benefits. However, SSA
    awarded benefits based on the earnings of identity thief/thieves who used the SSN to work in
    California during the 1970s and 1980s. The California death certificate indicated the
    numberholder died in 1986; however, the death entry did not appear in SSA’s records. After
    we identified this case, SSA terminated the couple’s benefits and determined it issued
    $104,906 in improper payments.

   It appeared individuals in California and New Mexico used the same SSN to work during the
    1970s and 1980s. SSA’s records indicated that earnings reported from California employers
    ceased in 1986—the same year California generated a death certificate for an individual
    using the SSN. However, reported earnings in New Mexico continued. In 2010, the
    individual in New Mexico filed for retirement benefits. At the time of our audit, it was not
    clear whether the SSN belonged to the wage earner who died in California or the person in
    New Mexico who was receiving benefits. In either case, SSA records indicated retirement
    benefits were improperly calculated based on both individuals’ combined earnings. If the
    New Mexico beneficiary is, in fact, the numberholder, we estimate that SSA overpaid
    approximately $4,000 in retirement benefits because of the overstated earnings.

   It appeared individuals in California and Florida used the same SSN to work. SSA records
    indicated a numberholder working in California had earnings through 1980. In 1982, the
    man filed a disability claim; however, SSA determined he was not disabled and denied the
    claim. According to the CDPH, the numberholder died in July 1983. Consistent with these
    facts, SSA records show no earnings activity reported under this SSN from 1981 through
    2003. However, in 2004, earnings activity resumed in Florida, and in 2005, a 66-year-old
    Florida man applied for and began receiving retirement benefits. OI’s interview with the
    numberholder led them to believe the death certificate belonged to an identity thief who used
    the SSN to work in California. If the Florida man is, in fact, the true numberholder, and he
    did not earn the wages in California during the 1970s, we estimate that SSA overpaid
    approximately $77,000 in retirement benefits because of the overstated earnings.

Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)     3
 SSA stated that one additional beneficiary is likely alive and that California issued the death
 certificate in 1982 upon the death of an identity thief using the beneficiary’s SSN. SSA is in the
 process of confirming the individual is the actual numberholder and reviewing the individual’s
 benefit status.

 Beneficiaries Were Deceased
 OI and SSA confirmed that SSA issued approximately $3 million in improper payments to
 14 beneficiaries who died in California during the 1980s. SSA terminated payments in each of
 these cases and quantified improper payments issue after the numberholders’ deaths.

      In 1973, a disabled man began receiving benefit payments. Since that time, the man’s sister
       had served as his representative payee and received the disability benefits on his behalf. We
       obtained a California death certificate indicating the man died in November 1985. However,
       after the man’s death, SSA issued $317,245 in improper payments to the man’s sister before
       terminating the payments in February 2014.
      In 1978, a disabled man and his spouse began receiving benefit payments. The spouse
       served as the man’s representative payee. We obtained a California death certificate
       indicating the man died in December 1985. SSA issued $231,687 in improper payments to
       the deceased man’s widow before terminating the payments in November 2013. 8 Because of
       her advanced age, prosecutors decided not to pursue criminal charges against the widow.
      In 1985, a wage earner and his spouse began receiving retirement benefits. We obtained a
       California death certificate indicating the wage earner died in October 1985. SSA terminated
       the payments in November 2013 and recorded a $198,925 overpayment on its payment
       records. The spouse died in 2012 so no criminal charges were pending.
          Table 1: Summary of Improper Payments Issued to 14 Deceased Beneficiaries
         Entitlement    Date of      Improper          Payments After
Case                                                                                        Case Status
            Date        Death        Payments         Death Received by
                                                                              Pled Guilty to Theft of Government
 1        03/1985      01/1987        $319,979              Child            Property and Sentenced to 12 Months
                                                                                            in Prison
 2        03/1960      12/1987        $186,602       Rep Payee/Sibling         Case Closed – Suspect Deceased
 3        05/1985      10/1985        $198,925            Widow                Case Closed – Suspect Deceased
 4        03/1984      05/1986        $101,741           Unknown                   Investigation in Progress
 5        08/1978      12/1985        $231,687       Rep Payee/Widow                 Prosecution Declined
 6        01/1974      12/1984        $247,331            Child                    Investigation in Progress
                                                                              Suspect Confessed – Criminal Case
 7        03/1986      07/1987        $282,014              Child
                                                                                             Pending



 8
  From January 1986 through November 2013, SSA issued the deceased man and his spouse approximately
 $395,000 in benefit payments. Because the spouse was entitled to survivor benefits after her husband’s death, not
 all amounts paid were improper payments. SSA assessed a $231,687 overpayment against the widow.



 Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)                        4
          Entitlement     Date of     Improper         Payments After
Case                                                                                         Case Status
             Date         Death       Payments        Death Received by
                                                                               Prosecution Declined - Suspect in
 8          05/1973      11/1985       $317,245       Rep Payee/Sibling
                                                                                            Mexico
                                                                                  Case Pending – Suspect has
 9          04/1995      09/1987       $337,107             Sibling
                                                                                         Alzheimer’s
                                                                               Suspect Arrested – Criminal Case
10          08/2009      05/1984          $66,548           Sibling
                                                                                           Pending
11          04/1978      09/1984          $98,022       Not Applicable          Bank Reclamation in Progress 9
                                                         Spouse and           Suspect Confessed – Criminal Case
12          06/1993      04/1981        $193,272
                                                         Accomplice                        Pending
13          03/1974      07/1984        $291,592          Unknown                  Investigation in Progress
                                                                               Suspect Arrested – Criminal Case
14          12/2004      01/1980          $85,978       Identity Thief
                                                                                           Pending
                          Total       $2,958,043

 Investigations in Progress
 Investigations are in progress in the four remaining cases. In two cases, OI has identified
 potential suspects and SSA has suspended the benefit payments. In the other two cases, active
 investigations are ongoing. If the numberholders are confirmed deceased, we estimate that SSA
 issued another $598,350 in improper payments. Our investigators will pursue criminal charges
 and work with SSA to terminate the payments, as appropriate.

 Deceased Non-beneficiary Numberholders
 We identified an additional 64,193 numberholders who had no death entry on the Numident but
 who were likely deceased. None of these numberholders was receiving SSA payments at the
 time of our review.

      54,309 numberholders’ names, SSNs, and dates of birth matched that of deceased individuals
       in CDPH death records.

      4,398 numberholders’ names and SSNs matched, but their dates of birth differed by 1 year or
       less from that of deceased individuals listed in CDPH death records.

      860 female numberholders’ first names, SSNs, and dates of birth matched that of deceased
       individuals in CDPH death records. Last names in CDPH death records did not match these
       numberholders’ Numident records; however, the differences could be attributed to
       differences in the numberholders’ birth/married names.




 9
     As of July 2014, SSA had recovered more than $55,000 through the reclamation process.



 Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)                 5
    4,626 numberholders’ SSNs matched, but other PII on the Numident and CDPH death
     records differed. For example, these cases included 2,994 numberholders whose names and
     SSNs matched that of deceased individuals listed in CDPH death records, but whose date of
     birth differed by greater than 1 year.

Though none of these numberholders was in current payment status at the time of our review, we
determined that SSA had established payment records for 11,628 of the 64,193 numberholders.
SSA had terminated 1,084 of the 11,628 payment records because of the numberholders’ death;
however, SSA had not included these numberholders’ death entries on the Numident. 10 SSA had
terminated 6,130 of the 11,628 payment records for reasons other than the numberholders’
deaths. Payment records of the remaining 4,414 numberholders were in various other
non-payment statuses. On June 12, 2014, we forwarded SSA a data file identifying the
64,193 numberholders.

Because of the length of time that had passed since California recorded these deaths, we could
not determine why the death information did not appear on the Numident. These
numberholders’ records presented a potential for fraud similar to those in the 2010 fraud case.
Further, because the Numident did not reflect death information for any of these numberholders,
the numberholders’ death information did not appear in the DMF.

Various Federal entities rely on SSA’s death information to detect unreported deaths and verify
the accuracy of reported deaths. Under section 205(r) of the Social Security Act, only agencies
paying federally funded benefits, such as the Railroad Retirement Board, Department of
Defense, Office of Personnel Management, and Department of Veterans Affairs, may receive the
full file of SSA’s death information. SSA also provides the full file to the Centers for Medicare
and Medicaid Services, Government Accountability Office, and Internal Revenue Service.
Agencies that do not pay any type of federally funded benefits may receive only the public
version of the DMF, which does not contain State death information. Private industry customers
(including banks, hospitals, universities, and insurance companies) may purchase the public
version of the DMF to verify death and prevent fraud.

In June 2010, the President directed Federal agencies to ensure they thoroughly review available
databases with relevant information on eligibility before they release any Federal funds. At a
minimum, agencies shall, before payment and award, check the existing databases, including
SSA’s DMF, to verify eligibility. 11

Any deceased numberholder whose death is not recorded on the Numident will not appear in
either version of the DMF. As a result, Federal and private entities that rely solely on the DMF
to detect deaths would not know these individuals were deceased. Our review confirmed that as


10
  We conducted audits comparing death information on SSA’s payment records to the DMF including Title II
Deceased Beneficiaries Who Do Not Have Death Information on the Numident (A-09-11-21171), July 2012; and
Title XVI Deceased Recipients Who Do Not Have Death Information on the Numident (A-09-12-22132), May 2013.
11
  Presidential Memorandum - Enhancing Payment Accuracy Through a “Do Not Pay List” June 18, 2010
(75 Fed.Reg. 35953: June 23, 2010).



Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)             6
many as 64,193 deceased numberholders did not have death information on the Numident and
therefore were not included in the DMF. This missing death information could result in
erroneous payments by other Federal agencies that rely on the DMF to detect inaccurate or
unreported deaths. The missing death information could also hinder private industry and State
and local governments’ ability to identify and prevent identity fraud.

Other Activity Recorded in SSA Records
We matched the 64,193 SSNs against SSA’s Earnings Suspense File (ESF), Master Earnings File
(MEF), and E-Verify systems and identified thousands of instances of post-1990 activity
recorded by individuals using these SSNs.

   Wages that employers report on W-2s containing names and/or SSNs that do not match
    SSA’s records cannot be posted to an individual’s earnings record in SSA's MEF. Instead,
    SSA places these wages in the ESF—SSA’s repository for unmatched wages. During Tax
    Years 2007 through 2011, SSA received 4,589 W-2s reporting approximately $41 million in
    earnings by individuals using 1,041 of the 64,193 SSNs. In each case, the employee name on
    the W-2 was different than the name appearing on the numberholder’s Numident record.
    One SSN was used on 71 different suspended wage reports issued during this 5-year period.

   Each year, SSA receives earnings reports from employers. SSA compares the name and SSN
    on the earnings report to the Numident and records validated earnings on the MEF. Since
    1990, SSA has recorded on the MEF $1,000 or more in annual earnings for only 678 of the
    64,193 numberholders. The fact that so few of these numberholders had reported earnings
    since 1990 and none of these numberholders receives SSA payments increases the likelihood
    that the numberholders are deceased.

   E-Verify is a Department of Homeland Security program that allows employers to verify
    whether newly hired employees are authorized to work in the United States under
    immigration law. From FYs 2008 through 2011, SSA received 388 E-Verify inquiries using
    the SSNs of 303 of the 64,193 beneficiaries.

The fact that more than 98 percent of the 64,193 numberholders had no reported earnings since
1990, and none of the numberholders received SSA payments at the time of our review increases
the likelihood that the numberholders are deceased. Thousands of suspended wage reports and
hundreds of E-Verify inquiries could indicate use of these SSNs by identity thieves.

Request for Additional CDPH Death Data
The Electronic Death Registration (EDR) reporting system is a State-sponsored initiative to
improve the accuracy and timeliness of death registration by electronically submitting each
participant’s (funeral homes, hospitals, coroners, local registrars) portion of the death certificate
to the State registration point. The States then send death information electronically to SSA.
EDR replaced the cumbersome and labor-intensive process under which SSA previously
received death information.



Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)            7
Although all States send death reports to SSA, EDR reports are different because the States can
verify the decedent’s SSN via an online SSN verification process before submitting the death
reports to SSA. Consequently, death information transmitted via EDR is less prone to error.
California implemented EDR in 2005.

We obtained CDPH death data covering the period 1970 through 2004 and plan to match the data
against SSA records as part of a subsequent review.

CONCLUSIONS
At the time of our audit, SSA issued benefit payments to 22 individuals whose PII matched that
of individuals who died in California during the 1980s. We obtained California death certificates
for each of the 22 beneficiaries and forwarded fraud referrals to OI.

   OI determined that three beneficiaries were alive. In these instances, it appeared that
    California had issued death certificates upon the deaths of identity thieves who used these
    SSNs to work in the 1970s and 1980s. It appeared that all three beneficiaries improperly
    benefited from the identity thieves’ earnings, resulting in as much as $186,000 in
    overpayments.

   SSA stated that one beneficiary is likely alive and the victim of an identity thief. SSA is in
    the process of verifying the beneficiary’s identity.

   OI determined that 14 beneficiaries were deceased. Upon notification from OI, SSA
    terminated these benefit payments and recorded the beneficiaries’ death information in its
    records. SSA determined it issued approximately $3 million in improper payments in these
    cases.

   Investigations are in progress in the four remaining cases. If the numberholders are
    confirmed deceased, we estimate that SSA issued an additional $598,350 in improper
    payments. Our investigators will pursue criminal charges and work with SSA to terminate
    the payments, as appropriate.

During the data matching process, we identified another 64,193 numberholders who were likely
deceased but did not have death information on the Numident. These numberholders’ PII
matched that of individuals listed in CDPH death records. None of the 64,193 numberholders
was receiving SSA payments at the time of our review. Resolving these discrepancies will
reduce SSA’s exposure to future improper payments and improve the accuracy and completeness
of the DMF.

RECOMMENDATIONS
We recommend that SSA:

1. Verify that the New Mexico and Florida beneficiaries are the correct numberholders,
   determine whether the California earnings should be removed from the benefit calculations,


Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)         8
    and take additional actions (terminate or adjust payment amounts, recover overpayments), as
    appropriate.

2. Work with the State of California to obtain and process death information for the
   64,193 non-beneficiary numberholders or process the death information contained in the
   CDPH data files used for the audit.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendation 1. However, SSA disagreed with Recommendation 2. The
Agency’s comments are included in Appendix C.

SSA disagreed with Recommendation 2 and stated it does not seek non-beneficiary death
information and does not have a reason to process non-program related information, nor the
resources to do so. While SSA may not seek non-beneficiary death information, we believe SSA
should not ignore non-beneficiary death information available to it.

We strongly disagree with SSA’s assertion that it does not have a reason to process non-
program related information. With its comments, SSA appears to disregard the fact that
numberholders who are not current beneficiaries can still have benefit claims filed in their names
as in the 2010 Florida case discussed in the Background section of this report. The perpetrators
of that fraud scheme mined the same CDPH data used for this audit to identify deceased
individuals whose PII were not included in the DMF, and subsequently filed fraudulent
retirement benefit claims using the deceased individuals’ identities. The numberholders
discussed in Recommendation 2 present a similar potential for benefit fraud. Further, Federal
benefit paying entities, the Department of Homeland Security’s E-Verify program, State and
local government entities, and private industry customers rely on the accuracy and completeness
of SSA’s death information to detect unreported deaths and prevent fraud without regard to the
deceased individuals’ Social Security benefit status.




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)     9
                                        APPENDICES




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed the Social Security Administration’s (SSA) policies and procedures.

   Reviewed Federal law and regulations related to death matches with State agencies.

   Obtained a California Department of Public Health (CDPH) death data file identifying
    1,466,852 individuals who died in California between January 1, 1980 and
    December 31, 1987. We matched the CDPH data against SSA’s Numident file and identified
    1,228,436 death entries that contained valid Social Security numbers (SSN).

   Identified 64,193 numberholders with no death entry on the Numident whose SSN, name,
    and/or date of birth (within a 2-year variance) matched deceased individuals listed in the
    CDPH death data file.

   Identified 27 Old-Age, Survivors and Disability Insurance beneficiaries and/or Supplemental
    Security Income recipients in current payment status as of September 2013, whose SSN, first
    and last names, date of birth and parents’ names matched individuals listed as deceased in the
    CDPH death data file. We obtained death certificates from CDPH for each of the
    27 individuals.

   Reviewed the Master Beneficiary Record, Supplemental Security Record, Detailed Earnings
    Query, Lexis-Nexis, and Numident for the 27 identified records. Based on review of these
    cases, we:

     Determined that 5 of the 27 individuals in current pay status were not the same
      individuals who died in California during the 1980s.

       o In four instances, SSA had erroneously superimposed the deceased numberholder’s PII
         with the Numident record of a living numberholder in current payment status.

       o In one instance, CDPH provided both an original and amended death certificate.
         CDPH determined it issued the original death certificate based on fraudulent
         identification of the decedent and changed the decedent’s name to “Jane Doe” on the
         amended death certificate.

     Referred the 22 remaining cases to our Office of Investigations for fraud development.

   Quantified both actual and potential improper payments after death.




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)     A-1
We conducted our audit between June 2013 and April 2014 at SSA’s Regional Office in Dallas,
Texas. We determined the data used for this audit were sufficiently reliable to meet our audit
objective. The primary entity audited was the Office of the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)   A-2
       Appendix B – SUMMARY OF IMPROPER PAYMENTS
                        Table B–1: Improper Payments Issued to Living Beneficiaries
                                      March 2014          Improper Payment         Overpayment
                        Number
                                     Payment Status           Amount               Established?
                           1           Terminated             $104,906                 Yes
                           2           Current Pay              $4,330                 No
                           3           Current Pay             $76,885                 No
                                           Total                 $186,121

        Table B–2: Improper Payments Issued to Deceased Beneficiaries (SSA Recorded Deaths,
                    Terminated Benefit Payments and Established Overpayments)
                                                         Improper Payment
                                               Case
                                                             Amount
                                                 1           $319,979
                                                 2           $186,602
                                                 3           $198,925
                                                 4           $101,741
                                                 5           $231,687
                                                 6           $247,331
                                                 7           $282,014
                                                 8           $317,245
                                                 9           $337,107
                                                10            $66,548
                                                11            $98,022
                                                12           $193,272
                                                13           $291,592
                                                14            $85,978
                                               Total         $2,958,043

                 Table B–3: Potential Improper Payments Issued to Deceased Beneficiaries
                              as of August 2014 (Investigations in Progress)
            June 2014              Estimated                                                             Overpayment
Case                                                                Investigation Status
          Payment Status       Improper Payments                                                          Established
 1          Current Pay             $124,351                 Family Member Under Investigation               No
 2          Current Pay             $149,090                       Investigation in Progress                 No
 3          Suspended               $161,059           Investigation in Progress-Subject Uncooperative       No
 4          Suspended               $163,850                     Suspect Under Investigation                 No
                Total               $598,350



       Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)          B-1
   Table B–4: Questioned Costs – Improper Payments Confirmed by SSA and Potential
              Improper Payments in Cases With Investigations in Progress
                                   Source                                 Amount
                          Terminated Payment from Table B-1                 $104,906
                            Improper Payments from Table B-2              $2,958,043
                  Estimated Improper Payments from Table B-3                $598,350
                                                            Total         $3,661,299

   Table B–5: Questioned Costs – Potential Improper Payments to Living Beneficiaries
                                        Source                      Amount
                             Item Number 2 from Table B-1            $4,330
                             Item Number 3 from Table B-1           $76,885
                                                       Total        $81,215




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)   B-2
           Appendix C – AGENCY COMMENTS




                                             SOCIAL SECURITY

MEMORANDUM

Date:      July 17, 2014                                                                  Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff
Subject:   Office of the Inspector General Draft Report, “Payments to Individuals with Deaths Reported in
           California from 1980 to 1987” (A-06-14-21416)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"PAYMENTS TO INDIVIDUALS WITH DEATHS REPORTED IN CALIFORNIA
FROM 1980 TO 1987" (A-06-14-21416)

Recommendation 1

Verify that the New Mexico and Florida beneficiaries are the correct number holders, determine
whether the California earnings should be removed from the benefit calculations, and take
additional actions (terminate or adjust payment amounts, recover overpayments), as appropriate.

Comment

We agree. We plan to complete our actions by December 2014.

Recommendation 2

Work with the State of California to obtain and process death information for the 64,193 non-
beneficiary number holders or process the death information contained in the California
Department of Public Health data files used for the audit.

Comment

We disagree. We have policy and procedures in place to verify the identity of applicants, and for
reviewing earnings associated with a Social Security number (SSN), to minimize the risk of
fraudulent misuse of a deceased person’s SSN. We do not seek non-beneficiary death
information and do not have reason to process non-program related information, nor the
resources to do so.




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)    C-2
Appendix D – MAJOR CONTRIBUTORS
Ron Gunia, Director, Dallas Audit Division

Neha Smith, Audit Manager

Clara Soto, Senior Auditor

Luis Ramirez, Audit Data Specialist

Wilfred Wong, Audit Data Specialist




Payments to Individuals with Deaths Reported in California from 1980 to 1987 (A-06-14-21416)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
